IN THE SUPREME COURT OF THE UNITED STATES

ROSALES, GERSON RODAS, ET AL.
Petitioner
vs.

No:

21-0067

MERRICK B. GARLAND, ATTORNEY GENERAL
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

ELIZABETH B. PRELOGAR
Acting Solicitor General
Counsel of Record
August 02, 2021
cc:
NANCY MORAWETZ
IMMIGRANT RIGHTS CLINIC
WASHINGTON SQUARE LEGAL
SERVICES, INC.
245 SULLIVAN STREET
5TH FLOOR
NEW YORK, NY 10012

